No. 20A150
________________________________________________________________
________________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_______________
TEXAS, ET AL., APPLICANTS
v.
COOK COUNTY, ILLINOIS, ET AL.
_______________
FEDERAL RESPONDENTS’ RESPONSE IN OPPOSITION TO
APPLICATION FOR LEAVE TO INTERVENE AND
FOR A STAY OF THE JUDGMENT ENTERED BY THE
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
_______________

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20A150
TEXAS, ET AL., APPLICANTS
v.
COOK COUNTY, ILLINOIS, ET AL.
_______________
FEDERAL RESPONDENTS’ RESPONSE IN OPPOSITION TO
APPLICATION FOR LEAVE TO INTERVENE AND
FOR A STAY OF THE JUDGMENT ENTERED BY THE
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
_______________

The Acting Solicitor General, on behalf of Secretary of
Homeland Security Alejandro N. Mayorkas and the other federal
parties,

respectfully

files

this

response

in

opposition

to

applicants’ application for a stay of the November 2, 2020 partial
final judgment issued by the United States District Court for the
Northern District of Illinois.
The application should be denied.

As an initial matter,

applicants have no basis for seeking this Court’s review -- let
alone a stay or summary reversal -- of the actions by the district
court and court of appeals that they challenge.

Only a “party” to

a “[c]ase[] in the courts of appeals” may file a petition for a
writ of certiorari enabling review of a lower-court judgment, 28
U.S.C. 1254(1), but applicants concede (Stay Appl. 23) that they
were “nonparties" in the court of appeals.

Indeed, applicants

never participated in the litigation even as an amicus while it

2
was in the court of appeals; their only filing came after the court
had already issued its mandate and divested itself of jurisdiction.
And while this Court has occasionally read the term “party” to
include a real party in interest who did not formally appear in
the court of appeals, see Stay Appl. 8, it has never suggested
that the term is so devoid of meaning as to include complete
strangers to the litigation like applicants.
Even if applicants’ filing were procedurally permissible,
moreover, it is misguided on the merits.

The U.S. Department of

Justice -- not any of the States that seek to intervene here -has the authority and responsibility to make litigation decisions
on behalf of the United States.

See 28 U.S.C. 516.

In doing so,

the Department relies on the views of other entities within the
government as well as its own “broad[] view of litigation in which
the Government is involved throughout the state and federal court
systems.”

FEC v. NRA Political Victory Fund, 513 U.S. 88, 96

(1994). And through that process, the government regularly decides
not to seek further review of adverse decisions based on a host of
legal and practical considerations.

Applicants disagree with the

result of that process here, but they identify no authority for
the proposition that, where the federal government decides not to
pursue litigation further, a court of appeals must recall its
mandate in order to allow strangers to the litigation to override
the federal government’s litigation decision.

3
STATEMENT
1.

The Immigration and Nationality Act (INA), 8 U.S.C. 1101

et seq., provides that an alien is “inadmissible” if, “in the
opinion of the [Secretary of Homeland Security] at the time of
application for admission or adjustment of status, [the alien] is
likely

at

any

time

to

become

a

public

charge.”

8

U.S.C.

1182(a)(4)(A). In August 2019, the Department of Homeland Security
(DHS) adopted a rule under which DHS would treat certain applicants
for admission or adjustment of status as likely to become “public
charge[s]” for purposes of that provision if it determined that
the applicants were likely to receive specified public benefits,
including participation in Medicaid or the Supplemental Nutrition
Assistance Program, for more than 12 months within any 36-month
period.

See 84 Fed. Reg. 41,292, 41,501 (Aug. 14, 2019) (2019

Rule or Rule).

The 2019 Rule represented a significant departure

from the definition and standards that the U.S. Citizenship and
Immigration

Services

had

used

in

applying

the

public-charge

inadmissibility ground during the decades preceding the Rule’s
adoption.
2.

The 2019 Rule generated extensive litigation across the

United States at all levels of the federal judiciary.

Plaintiffs

who had opposed adoption of the Rule (including 21 States and
numerous

local

governments

and

nongovernmental

organizations)

4
filed suits in five different district courts in four different
circuits alleging that the Rule was unlawful on numerous grounds.
a.
was

All five district courts concluded that the 2019 Rule

likely

unlawful,

and

entered

preliminary

October 2019 barring the Rule from taking effect.

injunctions

in

See Stay Appl.

App. D1-D33 (preliminary injunction entered by the District Court
for the Northern District of Illinois); Casa de Maryland, Inc. v.
Trump, 414 F. Supp. 3d 760 (D. Md. 2019); Washington v. United
States DHS, 408 F. Supp. 3d 1191 (E.D. Wash. 2019); New York v.
United States DHS, 408 F. Supp. 3d 334 (S.D.N.Y. 2019); Make the
Road N.Y. v. Cuccinelli, 419 F. Supp. 3d 647 (S.D.N.Y. 2019); City
& Cnty. of San Francisco v. U.S. Citizenship & Immigration Servs.,
408 F. Supp. 3d 1057 (N.D. Cal. 2019).
b.

The government sought stays pending appeal of those

preliminary injunctions.

The Fourth and Ninth Circuits granted

stays of the preliminary injunctions entered by district courts in
their jurisdictions, see City & Cnty. of San Francisco v. USCIS,
944 F.3d 773 (9th Cir. 2019); Order, Casa de Maryland, Inc. v.
Trump, No. 19-2222 (4th Cir. Dec. 9, 2019), while the Second and
Seventh Circuits declined to do so, see New York v. United States
DHS, Nos. 19-3591 & 19-3595, 2020 WL 95815 (2d Cir. Jan. 8, 2020);
Stay

Appl.

App.

E1.

This

Court

subsequently

granted

the

government’s motions for stays pending appeal of the preliminary

5
injunctions entered in New York and Illinois.

See DHS v. New York,

140 S. Ct. 599 (2020); 140 S. Ct. 681.
c.

Following this Court’s entry of a stay pending appeal in

the Northern District of Illinois case, DHS began implementation
of the Rule for the first time in February 2020.
United States DHS, 969 F.3d 42, 58 (2d Cir. 2020).

See New York v.
The appeals of

the preliminary injunctions proceeded with the Rule in place,
however, and the Second, Seventh, and Ninth Circuits thereafter
affirmed the preliminary injunctions entered in their respective
jurisdictions.

See New York v. United States DHS, 969 F.3d 42;

Stay Appl. App. H1-H82; City & Cnty. of San Francisco v. USCIS,
981 F.3d 742 (9th Cir. 2020).

The government filed petitions for

writs of certiorari seeking this Court’s review of all three
decisions.

See DHS v. New York, No. 20-449 (Oct. 7, 2020); Wolf

v. Cook Cnty., No. 20-450 (Oct. 7, 2020); USCIS v. City & Cnty. of
San Francisco, No. 20-962 (Jan. 21, 2020).
Finally, a divided panel of the Fourth Circuit initially
reversed the preliminary injunction entered by the District of
Maryland, see Casa de Maryland, Inc. v. Trump, 971 F.3d 220 (2020),
but the en banc Fourth Circuit subsequently vacated that decision
and set the case for re-argument, see 981 F.3d 311 (2020).
d.

Extensive litigation involving the challenges to the

Rule continued in the district courts as well.

6
i.

In

July

2020,

the

District

Court

for

the

Southern

District of New York entered a new preliminary injunction against
enforcement of the 2019 Rule during the pendency of the COVID-19
public-health emergency.

See New York v. United States DHS, 475

F. Supp. 3d 208, 223-231.

The court concluded that the plaintiffs

in that case had “provide[d] ample evidence that the Rule deters
immigrants from seeking testing and treatment for COVID-19, which
in turn impedes public efforts
disease.”

Id. at 226.

* * *

to stem the spread of the

In particular, the court pointed to

declarations filed by “[d]octors and other medical personnel,
state and local officials, and staff at nonprofit organizations”
that described “immigrants refusing to enroll in Medicaid or other
publicly funded health coverage, or forgoing testing and treatment
for COVID-19, out of fear that accepting such insurance or care
will increase their risk of being labeled a ‘public charge.’”
Ibid.
efforts

That evidence about how the 2019 Rule was interfering with
to

concluded,

combat

the

COVID-19

altered

the

equitable

pandemic,

the

district

court

balance

and

public-interest

factors that this Court had considered in entering a stay of the
district court’s prior preliminary injunctions in January 2020,
before the public-health emergency had been declared.

See id. at

225. The district court therefore concluded that a new preliminary
injunction was warranted.

Id. at 231.

The court noted that

although this Court had denied a motion to lift its stay in light

7
of the COVID-19 pandemic, the Court’s order specifically indicated
that it “d[id] not preclude a filing in the District Court as
counsel considers appropriate.”

Id. at 225 n.10 (quoting DHS v.

New York, 140 S. Ct. 2709 (2020)).
The Second Circuit entered a stay pending appeal of that new
preliminary injunction.

See New York v. United States DHS, 974

F.3d 210 (2020) (per curiam).

In doing so, the Second Circuit did

not address the relationship between the 2019 Rule and the COVID19 pandemic; instead, it held the district court had likely lacked
jurisdiction to enter a new preliminary injunction while the appeal
of

the

original

preliminary

injunctions

remained

pending,

regardless of whether a new preliminary injunction might otherwise
have been warranted.
ii.

See id. at 214-216.

Also in July 2020, the District Court for the Northern

District of Illinois ruled that the government would be required
to produce emails and other documentary evidence from certain highlevel White House officials who had been involved in formulating
the 2019 Rule, including former Senior Advisor to the President
Stephen Miller and former Acting White House Chief of Staff Mick
Mulvaney.

D. Ct. Doc. 190, at 2 (July 24, 2020).

The court also

ordered the parties to attempt to reach agreement about possible
depositions of senior officials, including Miller.

Id. at 1.

The

court concluded that this discovery was necessary to allow the
plaintiffs to develop their claim that adoption of the

Rule had

8
been

motivated

by

racial

animus,

in

violation

protection component of the Fifth Amendment.

of

the

equal-

See id. at 1-3; see

also 461 F. Supp. 3d 779 (earlier order denying motion to dismiss
equal-protection claim).
iii. In

August

2020,

the

United

States

Government

Accountability Office (GAO) released a report expressing its view
that former Acting Secretary of Homeland Security McAleenan -- the
signatory of the 2019 Rule -- and then-Acting Secretary of Homeland
Security Wolf had both been installed in their Acting Secretary
roles in violation of the Federal Vacancies Reform Act of 1998,
Pub. L. No. 105-277, Div. C., Tit. I, § 151, 112 Stat. 2681-611,
and the Homeland Security Act of 2002, Pub. L. No. 107-296, 116
Stat. 2135 (6 U.S.C. 1101 et seq.).

See GAO, B-331650, Department

of Homeland Security -- Legality of Service of Acting Secretary of
Homeland Security and Service of Senior Official Performing the
Duties of Deputy Secretary of Homeland Security (Aug. 14, 2020).
Plaintiffs in the Southern District of New York thereafter added
a

claim

asserting

that

those

alleged

violations

provided

additional reason for declaring the 2019 Rule invalid.

an

See First

Am. Compl. ¶¶ 309-315, New York v. United States DHS, No. 19-cv7777 (Oct. 2, 2020).
iv.

Finally, in November 2020, the District Court for the

Northern District of Illinois entered a judgment vacating the 2019
Rule on a nationwide basis under the Administrative Procedure Act

9
(APA), 5 U.S.C. 701 et seq.
concluded

that

the

2019

See Stay Appl. App. C1-C14.
Rule

did

not

represent

a

The court
reasonable

interpretation of the INA and that DHS had acted arbitrarily and
capriciously in adopting it.

See id. at C2-C4.

The court did not

resolve the plaintiffs’ separate equal-protection claim, however.
Instead, it issued a partial final judgment under Federal Rule of
Civil Procedure 54(b) on the plaintiffs’ APA claims while retaining
jurisdiction to consider the equal-protection claim after the
plaintiffs had completed the previously authorized discovery.

See

Stay Appl. App. C8-C12.
The Seventh Circuit thereafter granted a stay pending appeal
of the partial final judgment, and placed the appeal in abeyance
pending the disposition of the government’s petitions for writs of
certiorari in DHS v. New York, No. 20-449, and Wolf v. Cook County,
No. 20-450.
3.

See 20-3150 C.A. Doc. 21 (Nov. 19, 2020).

On February 2, 2021, shortly following the change in

Administration, President Biden directed the Secretary of Homeland
Security, along with the Attorney General, the Secretary of State,
and other relevant agency heads, to “review all agency actions
related

to

implementation

inadmissibility

* * *

of

the

public

charge

ground

of

and the related ground of deportability.”

Exec. Order No. 14,012, § 4, 86 Fed. Reg. 8277, 8278 (Feb. 5,
2021).

The President ordered the agencies to complete that review

within 60 days.

Ibid.

10
4.

On

February

22,

2021,

this

Court

granted

the

government’s petition for a writ of certiorari in DHS v. New York,
No. 20-449, in order to review the preliminary injunctions issued
in October 2019 by the District Court for the Southern District of
New York.

Approximately two weeks later, DHS announced that the

government had determined that continuing to defend the 2019 Rule
before this Court and in the lower courts would not be in the
public interest or an efficient use of government resources.
Stay Appl. App. K4-K5.

See

Consistent with that determination, on

March 9, 2021 the government filed stipulations with the Clerk of
this Court dismissing DHS v. New York, No. 20-449; Mayorkas v.
Cook County, No. 20-450; and USCIS v. City & County of San
Francisco, No. 20-962.
5.

The government likewise filed motions to dismiss public-

charge related appeals in the lower courts, including -- as most
relevant here -- its appeal of the partial final judgment entered
in the Northern District of Illinois vacating the 2019 Rule.
Stay Appl. App. P1.

See

The Seventh Circuit granted the government’s

motion and dismissed the appeal.

Stay Appl. App. B1-B3.

In

reliance on that dismissal, the plaintiffs subsequently dismissed
their equal-protection claim in the district court, terminating
the case.

D. Ct. Doc. 253 (Mar. 11, 2021).

Because the district

court’s judgment had become final, the government published a rule
that removed the 2019 Rule from the Code of Federal Regulations.

11
DHS, Inadmissibility on Public Charge Grounds; Implementation of
Vacatur, 86 Fed. Reg. 14,221, 14,221 (Mar. 15, 2021).
6.

On March 11, 2021, applicants -- a group of States that

had not previously participated in any of the above-described
litigation -- filed a motion in the Seventh Circuit to recall the
mandate in
judgment

the

appeal

vacating

of

the

the

Rule.

district
See

court’s

Stay

Appl.

partial
App.

final

I1-I42.

Applicants further sought leave to intervene in the appeal and
defend

the

Rule.

See

ibid.

The

court

applicants’ motion to recall the mandate.

of

appeals

denied

Id. at A1. 1

ARGUMENT
Applicants identify no case in which this Court has previously
granted the truly extraordinary relief they seek, and supply no
persuasive reason that the Court should grant such relief here.
Applicants’ primary request is that this Court grant a stay of a
district court judgment to which they were not parties; their
ostensibly more modest fallback request is that the Court summarily
reverse the court of appeals’ order denying their motion to recall
its

mandate.

Both

requests

fail

at

the

outset

for

the

straightforward reason that Congress has authorized only a “party”
Applicants also filed motions seeking leave to intervene
in the preliminary injunction appeals in the Fourth and Ninth
Circuits. Both courts of appeals denied the motions, with Judge
VanDyke dissenting from the denial of the motion in the Ninth
Circuit. See Order, Casa de Maryland, Inc. v. Biden, No. 19-2222
(4th Cir. Mar. 18, 2021); Order, City & Cnty. of San Francisco v.
USCIS, Nos. 19-17213, 19-17214, 19-35914 (9th Cir. Apr. 8, 2021).
1

12
to a “[c]ase[] in the courts of appeals” to file a petition for a
writ of certiorari seeking this Court’s review of a lower-court
decision.

28 U.S.C. 1254(1).

That statutory text does not

encompass applicants, who concede (Stay Appl. 23) that they are
“nonparties” and who never filed anything while the case was
pending in the court of appeals.
Even

if

applicants

could

overcome

that

jurisdictional

obstacle, moreover, the extraordinary relief they seek would still
be unwarranted.

Consistent with Article II of the Constitution,

Congress has vested the Executive Branch -- not the States or
private

parties

--

with

responsibility

decisions on behalf of the United States.

for

making

litigation

Giving others the right

to revive litigation that the Executive Branch has determined not
to pursue would frustrate that constitutional and congressional
choice.

At the very least, applicants have not shown that the

court of appeals abused its discretion in refusing to take the
unprecedented action they requested.
I.

APPLICANTS ARE NOT “PART[IES]” ENTITLED TO FILE A PETITION
FOR A WRIT OF CERTIORARI AND CANNOT SHOW THAT A STAY PENDING
SUCH A PETITION IS WARRANTED
In order to obtain a stay pending the filing and disposition

of a petition for a writ of certiorari, applicants must demonstrate
(1) a “reasonable probability” that the Court will grant the future
petition; (2) “a fair prospect that a majority of the Court will
conclude that the decision below was erroneous”; (3) that they

13
would suffer “irreparable harm

* * *

from the denial of a stay”;

and (4) that, in close cases, the “balance [of] the equities”
favors relief.

Conkright v. Frommert, 556 U.S. 1401, 1402 (2009)

(Ginsburg, J., in chambers) (citation and internal quotation marks
omitted).
A.

Applicants cannot satisfy those demanding requirements.
As

reasonable

a

threshold

likelihood

matter,

that

this

applicants
Court

cannot

will

show

grant

a

their

hypothetical future petition for a writ of certiorari, because
they have no right to file such a petition in the first place.
1.

In defining this Court’s appellate jurisdiction, see

U.S. Const. Art. III, § 2, Congress has authorized certiorari
review under Section 1254(1) only at the request of a “party” to
a “[c]ase[] in the courts of appeals.”

28 U.S.C. 1254(1).

This

Court’s Rules similarly provide for a stay of the enforcement of
a lower court’s judgment only at the request of “[a] party to [the]
judgment.”

Sup. Ct. R. 23.2.

Applicants acknowledge (Stay Appl.

23), however, that they were “nonparties” in the court of appeals.
Indeed, applicants never filed anything in the case -- no notice
of appearance, no amicus brief, no motion -- until after the court
of appeals had already issued its mandate terminating the appeal.
Under a straightforward reading of Section 1254(1), therefore,
applicants cannot file a petition for a writ of certiorari to
review the district court’s judgment or the court of appeals’

14
decision not to recall its mandate -- and this Court’s Rule 23.2
does not permit them to seek a stay, either.
2.

Applicants offer no textual understanding of the word

“party” that could apply to them.

Instead, they assert in a single

sentence that “[t]his Court has interpreted ‘party’ broadly to
allow

intervention

by

those

with

interests

that

affected by the judgment below,” citing four examples.

are

vitally

Stay Appl.

8 (citing Gonzales v. Oregon, 546 U.S. 807 (2005); Pyramid Lake
Paiute Tribe of Indians v. Truckee-Carson Irrigation Dist., 464
U.S. 863 (1983); Hunter v. Ohio ex rel. Miller, 396 U.S. 879
(1969); and Banks v. Chicago Grain Trimmers Ass’n, 389 U.S. 813
(1967)).

None of the cases they cite, however, supports their

claim that “interested nonparties” like applicants, Stay Appl. 23,
are free to file petitions for writs of certiorari seeking review
of judgments in cases in which they did not participate.
One of the cases on which applicants rely is simply irrelevant
to the question.

In Gonzales, the Court allowed a group of

nonparties to intervene at the merits stage only after granting a
petition for a writ of certiorari filed by another litigant who
had been a party to the case below.

Compare Gonzales, supra

(granting motion to intervene on October 3, 2005), with Gonzales
v.

Oregon,

543

U.S.

1145

(granting

petition

for

a

writ

of

certiorari on February 22, 2005); see Stephen M. Shapiro et al.,

15
Supreme Court Practice 6-63 (11th ed. 2019). 2

The Court’s grant

of the intervention motion accordingly did not depend on whether
the movants were “part[ies]” to the case in the court of appeals
for purposes of Section 1254(1).

28 U.S.C. 1254(1).

While the other three cases at least involved intervention at
the petition stage, none of them helps applicants because the
petitioners in those cases had a practical claim to party status
that applicants wholly lack.

In each, the petitioner was the real

party in interest in the litigation -- a benefits claimant seeking
to

defend

her

administrative

workers’

compensation

award

challenged by the employer respondent in Banks, a candidate for
election seeking to remain on the ballot in Hunter, and an Indian
tribe seeking to defend its water rights in Pyramid Lake Paiute
Tribe.

See Banks v. Chicago Grain Trimmers Ass’n, 390 U.S. 459,

460-461 (1968); Pet. at 6-9, Hunter, supra (No. 654); U.S. Br. at
6-10, Pyramid Lake Paiute Tribe, supra (No. 82-1723) (describing
background of tribe’s intervention motion).

The petitioners had

not been formal parties in the lower courts, however, because in
each case the government had been assigned special responsibility
to represent their individualized interests.

See Supreme Court

Practice 2-22 & n.43 (discussing Banks and Hunter); U.S. Br. at
The Court took a similar step in National Federation of
Independent Business v. Sebelius, 567 U.S. 519 (2012). Compare
565 U.S. 1033 (granting a writ of certiorari on November 14, 2011),
with 565 U.S. 1154 (granting motion to add additional parties on
January 17, 2012).
2

16
13, Pyramid Lake Paiute Tribe, supra (No. 82-1723) (supporting
intervention on the ground that “the Tribe will be bound by the
holding on the contract limitation issue in this case by virtue of
the United States’ participation as a party”) (citing Nevada v.
United States, 463 U.S. 110 (1983)); see also Nevada, 463 U.S. at
135 (discussing the United States’ participation in litigation as
“a party

* * *

acting as a representative for the Reservation’s

interests”).
As the United States explained in an invited submission in
Banks, that unusual posture -- in which the party seeking to
petition had been “[i]n a practical sense

* * *

in

[below]

interest

in

the

judicial

proceedings

the real party
even

if

not

formally named” -- meant that “it would not appear unreasonable to
deem [the] petitioner a party below for purposes of entitlement to
file a petition for a writ of certiorari.”
2-22 n.43 (quoting U.S. filing).

Supreme Court Practice

Cf. Black’s Law Dictionary 1350-

1351 (11th ed. 2019) (“For purposes of res judicata, a party to a
lawsuit is a person who has been named as a party and has a right
to

control

competent,

the

lawsuit

through

either

someone

personally,

appointed

to

or,

protect

if

not

the

fully

person’s

interests.”). 3

In Hunter, supra, this Court’s jurisdiction was invoked
under 28 U.S.C. 1257, which lacks the express “party” limitation
in Section 1254(1).
Supreme Court Practice 2-22 & n.44.
Applicants’ reliance on Hunter is misplaced for that reason, too.
3

17
Applicants cannot make any comparable claim here.

They were

not, and do not claim to have been, the real parties in interest
in the court of appeals or district court.

They have no role in

administering the INA or making admissibility and adjustment-ofstatus determinations, and the district court’s judgment will not
benefit or burden them in any direct, particularized way.
will that

judgment

have

subsequent litigation.
only

that

the

judicata

effect

against

them

in

Instead, applicants assert (Stay Appl. 8)

judgment

indirect way:

res

Nor

may

“affect[]”

their

interests

in

an

DHS might in the future grant lawful permanent

resident (LPR) status to an unknown number of noncitizens who would
not have received it but for the district court’s vacatur of the
2019 Rule, and some subset of that group might in turn become
eligible for public benefits paid for by applicants.
Appl. 8-10.
interest

See Stay

Even assuming that such a speculative, indirect

would

be

sufficient

to

give

applicants

Article

III

standing to litigate a suit of their own, it does not make
applicants “part[ies]” to a case in which they had no involvement
at all (actual or practical) until after the appellate mandate had
already issued. 28 U.S.C. 1254(1). To accept applicants’ contrary
contention -- that anyone “affected” by a lower court’s judgment
may

seek

this

Court’s

review

by

certiorari

without

having

participated in the case in the lower courts -- would be to ignore

18
the “party” limitation Congress adopted in the text of Section
1254(1).
3.

Applicants briefly assert that decisions allowing “‘one

who has been denied the right to intervene in a case in a court of
appeals [to] petition for certiorari to review that ruling’”
provide an “independent basis” for their future petition and
current stay application.
omitted).
a.

Stay Appl. 10-11 (brackets and citation

That assertion is incorrect for at least two reasons.
In the cases on which applicants rely, the petitioners

had participated in the cases while they were pending “in the
courts of appeals.”

28 U.S.C. 1254. 4

The same is true in Cameron

v. EMW Women’s Surgical Center, No. 20-601 (Mar. 29, 2021), in
which this Court recently granted a writ of certiorari to review
In International Union, UAW, Local 283 v. Scofield, 382
U.S. 205 (1965), the petitioner (a union) had been a defendant in
administrative proceedings before the National Labor Relations
Board, then sought to intervene in the court of appeals to defend
the administrative decision in its favor alongside the Board. See
id. at 207. The court of appeals authorized the union to file an
amicus brief, but denied its motion to intervene. Ibid. Likewise,
in Izumi Seimitsu Kogyo Kabushiki Kaisha v. U.S. Philips Corp.,
510 U.S. 27 (1993) (per curiam), the petitioner filed a motion to
intervene while the court of appeals was considering a joint
request, filed by the parties, to vacate the district court’s
judgment in the case. See id. at 29. The court of appeals denied
the motion to intervene and proceeded to grant the parties’ request
to vacate.
See ibid.
Applicants also rely (Stay Appl. 10) on
language from this Court’s decision in Hohn v. United States, 524
U.S. 236, 247-248 (1998).
That language described the Court’s
prior holding in Scofield, supra; Hohn itself did not involve
intervention, but rather whether a habeas petitioner’s application
for a certificate of appealability qualifies as a “[c]ase[] in the
court[] of appeals,” 28 U.S.C. 1254. See Hohn, 524 U.S. at 241.
4

19
whether a state attorney general should have been granted leave to
intervene in defense of a state law and file a timely petition for
rehearing.

See EMW Women’s Surgical Ctr., P.S.C. v. Friedlander,

831 Fed. Appx. 748, 749-750 (6th Cir. 2020) (describing timing of
intervention request), cert. granted, No. 20-601 (Mar. 29, 2021).
Here, by contrast, applicants filed nothing at all in the
public-charge-related litigation until the court of appeals had
already dismissed the appeal and issued its mandate.

See Stay

Appl. App. I1-I42; 20-3150 C.A. Doc. 24-2 (Mar. 9, 2021).

That

timing is significant, because issuance of the mandate “br[ought]
the proceedings in [the] case on appeal

* * *

to a close” and

“remove[d] it from the jurisdiction of” the court of appeals. 16AA
Charles Alan Wright & Arthur R. Miller, Federal Practice and
Procedure § 3987 n.1 (5th ed. Oct. 2020 update) (quoting Ostrer v.
United States, 584 F.2d 594, 598 (2d Cir. 1978)).

Accordingly,

even if filing an unsuccessful intervention motion is enough to
qualify as a “party” for purposes of Section 1254(1) -- an issue
that this Court does not appear ever to have expressly addressed
-- applicants still do not come within Section 1254(1)’s additional
requirement that they have been parties while the case was “in the
court[] of appeals.”
b.
limit

28 U.S.C. 1254(1).

The intervention cases on which applicants rely also
the

scope

of

this

Court’s

review

in

incompatible with the relief applicants request.

ways

that

are

Specifically,

20
while this Court has sometimes allowed a person whose motion to
intervene has been denied to “seek Supreme Court review of the
denial of the motion to intervene,

* * *

such a putative

intervenor cannot petition for review of any other aspect of the
judgment below.”

Supreme Court Practice 6-62 (collecting cases);

see, e.g., Scofield, 382 U.S. at 209 (observing that while the
Court

could

review

“the

orders

denying

intervention,”

the

unsuccessful intervenor “would not have been entitled to file a
petition to review a judgment on the merits”); cf. Cameron, supra,
(granting

certiorari

as

to

the

first

question

of

whether

intervention should have been allowed, but not as to the second
question of whether the court of appeals’ judgment on the merits
should be vacated).
That limitation means that even if applicants could file a
petition for a writ of certiorari, but see pp. 13-19, supra, their
petition would be limited to whether the Seventh Circuit should
have permitted them to intervene.

But applicants make no effort

to show that such a petition would satisfy this Court’s ordinary
certiorari criteria or that there is otherwise a “reasonable
probability” this Court would grant it.

Conkright, 556 U.S. at

1402 (Ginsburg, J., in chambers) (citation omitted); see Sup. Ct.
R. 10.
court’s

Nor do they attempt to explain why a stay of the district
underlying

merits

judgment

would

be

appropriate

in

connection with a petition limited to the question of appellate

21
intervention.

Instead, they focus their argument for a stay on

the prospect that this Court would grant a petition addressing the
merits of the 2019 Rule -- a petition that they clearly cannot
file.
address

See Stay Appl. 12-19.
at

all

the

separate

Indeed, to the extent applicants
suitability

of

the

intervention

question for this Court’s review, they implicitly concede that it
would not warrant plenary consideration.

They ask instead for

summary reversal -- a request that is without merit.

See pp. 26-

31, infra.
Accordingly, because it is exceedingly unlikely that the
Court would grant a petition for a writ of certiorari filed by
applicants, applicants have not established a basis for a stay of
the district court’s partial final judgment.
B.

Applicants’ stay request should also be denied for the

additional reasons that they have not established that they will
suffer irreparable harm and have not shown that the balance of
equities and public interest favor a stay.

See Conkright, 556

U.S. at 1402 (Ginsburg, J., in chambers).
1.

When the government previously asked this Court to grant

stays in connection with the 2019 Rule, it did so against the
backdrop of Congress’s vesting of authority in the Secretary of
Homeland Security to administer the public-charge provision.

See

8 U.S.C. 1182(a)(4)(A) (providing that an alien is “inadmissible”
if, “in the opinion of the [Secretary of Homeland Security],” he

22
“is likely at any time to become a public charge”).

That statutory

vesting of authority meant that the Secretary, and DHS and the
federal government more broadly, would suffer irreparable harm if
required to admit an alien whom the Secretary had determined was
likely to become a public charge.

Cf. Maryland v. King, 567 U.S.

1301, 1303 (2012) (Roberts, C.J., in chambers) (“Any time a State
is enjoined by a court from effectuating statutes enacted by
representatives of its people, it suffers a form of irreparable
injury.”) (brackets and citation omitted).
Applicants, however, have no role in making public-charge
determinations, nor are they charged with adjusting noncitizens’
federal immigration status more generally.

This Court’s prior

irreparable-harm findings accordingly have no bearing on whether
applicants are entitled to seek a stay of a judgment that the
federal government has decided no longer to challenge.
Stay

Appl.

20.

And

the

only

claim

of

irreparable

Contra
harm

to

applicants’ own interests that they assert (Stay Appl. 20-22) is
a speculative claim of monetary injury that cannot support a stay
in these circumstances. 5
Applicants also contend (Stay Appl. 20) that they will
lose a “procedural right” to object to rescission of the Rule.
But applicants have no procedural right to be consulted in advance
(or after the fact) about the federal government’s litigation
decisions. And even if such a procedural right did exist, it would
not provide a basis for a stay where, as here, applicants cannot
show that irreparable harm to their substantive interests will
result. Applicants invoke (Stay Appl. 21) this Court’s decision
in Massachusetts v. EPA, 549 U.S. 497 (2007), but that case
5

23
Specifically, applicants contend (Stay Appl. 8-9) that they
will suffer monetary harm through the following chain of events:
(1) DHS might, as a result of the district court’s judgment, admit
or grant LPR status to some indeterminate number of noncitizens
who would not have been admitted or received LPR status under the
2019 Rule; (2) some subset of those noncitizens might live in
applicants’ jurisdictions; (3) some subset of that subset might
apply for Medicaid or other public-benefits programs paid for (at
least in part) by applicants; and (4) applicants’ expenditures on
those

public-benefits

programs

might

be

greater

than

any

countervailing financial effects of the Rule’s vacatur.
Applicants make no serious effort to estimate the size of
this feared financial injury.

Real-world experience with the 2019

Rule, moreover, suggests that this causal chain is likely to result
in few, if any, additional noncitizens becoming eligible for and
receiving benefits in applicants’ jurisdictions.

According to

information provided to the Office of the Solicitor General by
DHS, the Rule made a difference in only a minuscule number of
immigration adjudications during the period it was in effect
between February 2020 and March 2021:

immigration officials

applied the Rule in adjudicating approximately 47,500 applications
for adjustment of status, of which just three were denied based on
involved standing; it did not address irreparable harm, let alone
hold that the bare loss of a procedural right, standing alone, is
a sufficient basis for a stay.

24
the 2019 Rule (with Notices of Intent to Deny also issued in
response

to

two

other

applications).

Applicants’

implicit

speculation that the Rule would substantially reduce the number of
noncitizens

eligible

for

public

benefits

jurisdictions thus appears to be incorrect.

within

their

Moreover, applicants

ignore that noncitizens admitted to the country on non-immigrant
visas

are,

with

certain

limited

exceptions,

“ineligible

for

benefits,” and that even noncitizens with LPR status are “eligible
to receive very few benefits until [they have] been here for five
years.”

Stay Appl. App. H43-H45 (Barrett, J., dissenting); see 8

U.S.C. 1611, 1613, 1621.
undercut

applicants’

Those statutory restrictions further

ability

to

show

that

they

will

suffer

irreparable harm of a sort that could support a stay. 6
2.

Applicants

also

fail

to

address

the

substantial

equitable and public-interest considerations that weigh against a
stay.
vacated

Putting the 2019 Rule back into effect weeks after it was
could

create

substantial

communities

(including

for

Indeed,

recognized

even

DHS

citizens
in

confusion
and

connection

in

immigrant

noncitizens
with

the

alike).
original

As discussed next, evidence suggests that citizens,
lawful permanent residents, and others who were not subject to the
2019 Rule refrained from using benefits for which they were
eligible because of confusion about the 2019 Rule’s effects. See
pp. 24-26, infra. Applicants appropriately have not argued that
they are entitled to a stay in order to perpetuate this confusion
and any incidental cost-savings it may have generated. See Stay
Appl. 9 (relying only on putative cost savings associated with
“immigrants who would otherwise be inadmissible under the DHS
Rule”).
6

25
adoption of the 2019 Rule that “confusion regarding the rule’s
scope and effect” could lead to negative consequences, such as
disenrollment from public-benefits programs by citizens and others
who are not themselves subject to the Rule.
41,313.

84 Fed. Reg. at

DHS further recognized that such disenrollment could in

turn lead to “food insecurity, housing scarcity,” adverse effects
on “public health and vaccinations,” and “increased costs to states
and localities.”

Ibid.

Those harmful, unintended effects would

likely become more pronounced if the Rule is placed back into
effect after the public has been advised that the Rule was finally
vacated and no longer operational.
This

would

be

a

particularly

poor

time,

moreover,

to

reintroduce what DHS identified even before the pandemic as the
potentially harmful impact of the Rule on “public health and
vaccinations.”

84 Fed. Reg. at 41,313.

Evidence suggests that

confusion over the 2019 Rule has interfered with efforts to combat
the COVID-19 public-health emergency, as the District Court for
the Southern District of New York concluded in July.

See New York

v. United States DHS, 475 F. Supp. 3d 208, 223-231 (2020) (pointing
to

declarations

provided

by

doctors

and

other

public-health

professionals); pp. 6-7, supra. Regardless of whether the district
court in that case had jurisdiction to impose a new preliminary
injunction on that basis, its findings illustrate that granting
applicants’ requested stay could frustrate current efforts to

26
vaccinate especially vulnerable communities.

See New York, 475 F.

Supp. 3d at 227 (observing that “[i]mmigrants make up a substantial
portion of workers in essential industries who have continued to
work throughout the national emergency” and as such face increased
risk of infection).

The speculative claims of future monetary

harm on which applicants rely do not begin to justify a stay from
this Court that could have such negative consequences for public
health

in

the

midst

of

a

pandemic.

For

that

independently

sufficient reason, too, a stay is not warranted.
II.

APPLICANTS IDENTIFY NO ERROR AT ALL -- AND CERTAINLY NO BASIS
FOR SUMMARY REVERSAL -- IN THE COURT OF APPEALS’ DENIAL OF
THEIR MOTION TO RECALL THE MANDATE
Applicants alternatively request that this Court “summar[ily]

revers[e]

* * *

the court of appeals’ denial of their motions to

recall the mandate” and allow applicants to revive the case.

Stay

Appl. 22 (capitalization and emphasis omitted); see Stay Appl. 2226.

For the reasons already discussed, applicants have no claim

to such relief because they are not “part[ies]” entitled to seek
this Court’s review under 28 U.S.C. 1254(1).

And even if they

could overcome that jurisdictional problem, applicants identify no
case in which a court of appeals has ever recalled its mandate to
allow intervention of the sort applicants envision here, let alone
a case in which this Court found that a court of appeals had abused
its discretion in declining to do so.

Their request that this

27
Court do so for the first time in a summary reversal here lacks
merit and should be denied.
This Court has recognized that a court of appeals has inherent
authority to recall its mandate, but that “the power can be
exercised only in extraordinary circumstances,” ordinarily as an
option “of last resort, to be held in reserve against grave,
unforeseen contingencies.”
550 (1998).

Calderon v. Thompson, 523 U.S. 538,

The Court reviews a court of appeals’ decision on

whether to recall its mandate for abuse of discretion.

See id. at

549.
This case presents no extraordinary circumstances that would
have warranted recall of the mandate. The only assertedly “unusual
circumstances” that applicants identify (Stay Appl. 22) are that
“the United States defended the Rule for over a year” and then
determined
providing

not

to

“notice

extraordinary

(or

continue
to
even

any

defending
of

the

unusual),

the

Rule

States.”
however,

without
It

for

is
the

first
hardly

federal

government to decide not to pursue further review of a lower-court
decision vacating a federal rule.

See, e.g., Natural Res. Def.

Council v. Wheeler, 955 F.3d 68 (D.C. Cir. 2020) (April 7, 2020
decision striking down Environmental Protection Agency rule; no
further review sought); Conservation Law Found. v. Ross, No. 195365,

2020

WL

2610894

(D.C.

Cir.

Apr.

27,

2020)

(granting

government’s motion to voluntarily dismiss appeal in case where

28
district court held unlawful a final rule adopted by the National
Marine Fisheries Service); Center for Sci. in the Public Interest
v. Perdue, 438 F. Supp. 3d 546 (D. Md. 2020) (April 13, 2020
decision striking down Department of Agriculture rule; no further
review sought). Nor does the federal government ordinarily provide
nonparties, such as applicants, with advance notice of those
litigating decisions.
Contrary to applicants’ intimations (e.g., Stay Appl. 1-3, 78,

23-24),

there

is

nothing

inconsistent

with

the

APA

about

deciding not to pursue further review of a final judgment entered
by a district court or court of appeals.

In any given case, there

are likely to be those whose “parochial view of the interest of
the Government” would lead them to appeal an adverse judgment.
FEC v. NRA Political Victory Fund, 513 U.S. 88, 96 (1994).

Rather

than adopt an appeal-everything standard, however, Congress has
(with certain exceptions not relevant here) given discretionary
control over appeals to the Department of Justice, which can
exercise that discretion using its “broader view of litigation in
which the Government is involved throughout the state and federal
court systems.”

Ibid.; see 28 U.S.C. 516; see also 5 U.S.C. 3106,

28 U.S.C 519. Congress’s policy choice assumes that the government
will not always pursue every available appeal, but will instead
balance such considerations as the strength of the respective
positions on the merits; the legal and practical consequences of

29
an

adverse

decision;

the

burdens

associated

with

ongoing

litigation (including discovery burdens that such litigation may
impose on the government); and the public interest more broadly.
Cf. NRA Political Victory Fund, 513 U.S. at 96 (“Whether review of
a decision adverse to the Government in a court of appeals should
be sought depends on a number of factors which do not lend
themselves to easy categorization.”).

Applicants disagree with

how

considerations

the

government

balanced

those

in

this

particular circumstance, but that hardly presents the sort of
situation for which a recall of the mandate might be appropriate.
Indeed, it is applicants’ requested relief that would be truly
extraordinary.

They identify no case in which a court of appeals

has ever recalled its mandate in order to allow a nonparty to
revive a challenge to a federal rule that the Department of Justice
has determined no longer to defend through continued pursuit of an
appeal.

Yet applicants’ position appears to be that such a recall

of the mandate would be warranted whenever the federal government
opts not to pursue a civil case all the way to a final decision in
this Court, so long as one of the “numerous interested nonparties”
can assert a financial stake in seeking further review. Stay Appl.
23.
That
Interested

position
nonparties

would
have

have
just

far-reaching
the

sort

consequences.
of

“parochial”

interests in litigation that Congress sought to counterbalance by

30
centralizing the federal government’s litigating authority in the
Department of Justice.
96.

NRA Political Victory Fund, 513 U.S. at

Here, for example, applicants focus (Stay Appl. 8-9) solely

on the potential effects of the district court’s judgment for
future Medicaid budgets.

By contrast, they appear to have given

no consideration to the possible public-health consequences of
reviving litigation over the Rule.

See pp. 24-26, supra.

Nor do

they address the costs and distraction that renewed litigation
over the 2019 Rule would present for DHS and the federal government
more broadly.

The Executive Branch, at the President’s express

direction, is actively reviewing the government’s policies in this
area.

It would significantly complicate those efforts to be

simultaneously engaged in extensive litigation regarding the 2019
Rule after DHS already determined that continuing to defend the
2019 Rule before this Court and in the lower courts would not be
in the public interest or an efficient use of government resources.
See Stay Appl. App. K4-K5.
In addition, any such litigation would encompass not just the
claims addressed in the district court’s partial final judgment,
but also additional claims, such as the allegation that the 2019
Rule was adopted because of racial animus on the part of senior
officials

in

the

prior

Administration.

See

pp.

7-8,

supra.

Resolving that equal-protection claim would, as the government
recognized

last

year,

involve

“contentious

discovery

disputes

31
raising difficult issues of executive privilege” -- and would be
even more challenging now that the officials no longer work in
government.

D. Ct. Doc. 163, at 5 (June 16, 2020).

Yet nonparties

like applicants have no reason to take such legal, practical, and
financial effects for the federal government into account here, or
in any other case.
Given

the

“extraordinary”

apparent
relief

lack

of

applicants

any

sought

precedent
from

the

for

the

court

of

appeals, Calderon, 523 U.S. at 558, and the substantial disruption
that granting such relief would have caused, applicants have fallen
far short of showing that the court abused its discretion in
declining to recall the mandate.
summarily

reverse

the

court

Their request that this Court
of

appeals’

decision

should

accordingly be denied.
CONCLUSION
The application for leave to intervene and for a stay should
be denied.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
APRIL 2021

